ES, IG-99-048, Year 2000 Program Oversight of NASA Grants and Cooperative Agreements
YEAR 2000 PROGRAM OVERSIGHT OF
NASA GRANTS AND COOPERATIVE AGREEMENTS
IG-99-048
Executive Summary
Background
In fiscal year 1998, NASA had 8,469 active grants and cooperative agreements
totaling $5.4 billion.  The grants and cooperative agreements were with
educational institutions, hospitals, other non-profit organizations, and
commercial firms and supported education and science and engineering
research.  Recipients of grants and cooperative agreements (hereafter
referred to as recipients) are responsible for the scientific,
administrative, and financial aspects of the supported research activity.
This responsibility includes anticipating and reacting to events such as the
Year 2000 (Y2K) problem(1) and mitigating potential, costly problems caused by
the use of noncompliant systems.  Recipients must take appropriate steps to
ensure that NASA programs and projects will not be adversely affected by the
Y2K-date problem.
Objective
Our overall audit objective was to evaluate the adequacy of NASA's Y2K
program-level, end-to-end testing efforts (see Appendix B).  During the
audit, we identified an issue regarding the Agency's Y2K program oversight
of grants and cooperative agreements.  We evaluated NASA's efforts to ensure
that NASA-funded research done under grants and cooperative agreements will
not be adversely affected by the Y2K-date problem.(2)  Details on our audit
objective, scope, and methodology are in Appendix A.  Other reports we have
issued on the Y2K-date problem are discussed in Appendix D.
Results of Audit
NASA can improve Y2K program oversight of its grants and cooperative
agreements.  Specifically, NASA requires recipients to report significant
Y2K-related problems, but NASA has not established timeframes for such
reporting.  Additionally, NASA does not require recipients to report on
whether recipient computer systems are Y2K compliant.  The combination of
these conditions limits NASA's ability to determine whether Y2K-related
problems exist but have not yet been reported.  As a result, the Agency
lacks reasonable assurance that it will receive research results that are
not adversely affected by Y2K-date problems or notification of such problems
in time to take corrective action.
Recommendations
NASA management should request major(3) recipients to report to the cognizant
NASA procurement office by September 30, 1999, on whether recipient computer
systems are Y2K compliant and on significant Y2K-related problems.  Also,
NASA management should require appropriate remedial actions to address any
Y2K-related problems identified by the major recipients.
Management's Response
Management concurred with each recommendation.  With regard to major
recipients, NASA agreed to request responses from the 20 largest recipients
by October 29, 1999.  Those 20 recipients received about 50 percent of the
total dollar value of fiscal year 1998 grants and cooperative agreements.
Based on the response received, NASA will determine whether further action
is required.  The complete text of the response is in Appendix E.  We
consider management's comments responsive.
FOOTNOTES
1.  The Y2K date conversion problem affects computer systems worldwide.  Software application programs that use a standard two-digit format (mm/dd/yy) to generate a date may not work properly after the year 2000.  Systems that will continue to function properly are designated "Y2K compliant."  Systems that are not "Y2K compliant" are at risk of failure and may cause other systems to fail.
2.  We performed field work at nine NASA Centers and Headquarters.  We did not perform field work at the Jet Propulsion Laboratory.
3.  The Office of Inspector General defined "major recipients" as those recipients of grants or cooperative agreements having a cumulative award value of at least $2 million.  In fiscal year 1998, major recipients totaled 148; NASA had awarded them about 70 percent of the value of total, active NASA grants and cooperative agreements.
Report in PDF